                                              Federal Communications Commission

                                                          Washington, D.C.
   Office of the
Inspector General
                                                               April 2, 2002


        Mitchell E. Daniels, Jr.
        Director
        Office of Management and Budget
        Executive Office Building
        725 17th Street, N.W.
        Washington, D.C. 20503

        Dear Mr. Daniels:

               This letter is being issued in accordance with the requirements of the Federal Activities
        Inventory Reform Act of 1998 (FAIR Act), Office of Management and Budget (OMB) Circular
        A-76 Transmittal Memorandum No. 20 and supplemental guidance issued by OMB. In light of
        the overall objective and independent purpose and mission of this office as defined under the
        Inspector General Act, I am of the opinion that all of the employees of the Office of the Inspector
        General (OIG) occupy inherently governmental positions and thus are not subject to outsourcing.

                OMB Circular A-76 provides that the criminal investigative function and certain other
        functions such as management and budgeting are inherently governmental. Further, as stated in
        the circular, an inherently governmental function is a function, which is so intimately related to
        the public interest as to mandate performance by Government employees. In my estimation, the
        language from the circular coupled with the overarching purpose of the OIG to prohibit and
        prevent fraud, waste and abuse within a governmental entity clearly reflects the inherently
        governmental nature of this office.

                    The specific activities of this office include the following:

                           •   Administrative investigations (investigation of senior personnel, requests for
                               inquiries by members of Congress, Hotline operations etc.);
                           •   Audit policy, planning quality assurance, management resolution and
                               oversight; and
                           •   Inspection/program evaluation, policy, quality assurance, management
                               resolution and oversight.

               Notwithstanding the foregoing inherently governmental activities, this office has
        outsourced over $1,500,000 for contract activities in support of its functions. Since its
establishment, this office has utilized contractor and consultant services to achieve its legislative
mandate. As to the day to day functional support areas of supply and logistics, personnel security
and personnel support, this office relies on agency management and
thus follows agency practices for these activities. It is anticipated that this approach will
continue in the future.

        Because of the nature of the work of this office and its small size, any ability to expand
the nature of its outsourcing will be limited. Finally, in accordance with the Circular A-76
Supplement, please be advised that this office did not receive any FAIR Act administrative
challenges in 2001.


                                                      Sincerely,


                                                      H. Walker Feaster, III
                                                      Inspector General


cc: David Childs
                                                             Commercial and Inherently Governmental FTE Inventory Worksheet




                       Org Unit                        Location                                             Status                                          Additional Information

     Seq                                                                            Total        Activity                   Reason      First Year      Year of      CIV\FTE   Est Ann Cost      Year of
     No.       Agy_Bur   Abbreviation   State   City                      Country   FTEs        Fct Code    Status Reason   Sub_Code   On Inventory   Cost Compare   Savings   Comp Savings    MEO Review
           1    356-00   FCC OIG        DC      Washington                  US              6     I430         I
           2    356-00   FCC OIG        DC      Washington                  US              2     I420         I
           3    356-00   FCC OIG        DC      Washington                  US              3     I100         I
           4                                                                US
           5                                                                US




Fair Ac37. Inventory                                                                        Page 1 of 1                                                                                       12/3/2002
Agy_Bur Org Unit     Last Name    First Name    Prefix   Suffix   Email              Phone
356-00  FCC OIG      Willoughby   Charles       Mr.               cwilloug@fcc.gov   202-418-0472




005-03
456-00




Fair Ac36. Contact                Page 1 of 1                                             12/3/2002
